<html>
<title> - NOMINATIONS OF MICKEY D. BARNETT, KATHERINE C. TOBIN, AND ELLEN C. WILLIAMS</title>
<body><pre>[Senate Hearing 109-870]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 109-870
 
  NOMINATIONS OF MICKEY D. BARNETT, KATHERINE C. TOBIN, AND ELLEN C. 
                                WILLIAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                 ON THE

  NOMINATIONS OF MICKEY D. BARNETT, KATHERINE C. TOBIN, AND ELLEN C. 
          WILLIAMS, TO BE GOVERNORS OF THE U.S. POSTAL SERVICE


                               __________

                             JUNE 28, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

29-508 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
             Michael L. Alexander, Minority Staff Director
         Adam R. Sedgewick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Carper...............................................     2
    Senator Domenici.............................................     4
    Senator Warner...............................................     9

                               WITNESSES
                        Wednesday, June 28, 2006

Hon. Mitch McConnell, a U.S. Senator from the State of Kentucky..     5
    Prepared statement...........................................    25
Mickey D. Barnett to be a Governor of the U.S. Postal Service:
    Testimony....................................................     8
    Prepared statement...........................................    30
    Biographical and professional information....................    31
    Responses to pre-hearing questions...........................    44
    Letter from U.S. Office of Government Ethics.................    58
    Letters of support for Mr. Barnett...........................    60
Katherine C. Tobin to be a Governor of the U.S. Postal Service
    Testimony....................................................     8
    Prepared statement...........................................    78
    Biographical and professional information....................    82
    Responses to pre-hearing questions...........................    89
    Letter from U.S. Office of Government Ethics.................    99
Ellen C. Williams to be a Governor of the U.S. Postal Service
    Testimony....................................................    10
    Prepared statement...........................................   101
    Biographical and professional information....................   103
    Responses to pre-hearing questions...........................   112
    Letter from U.S. Office of Government Ethics.................   129


                   NOMINATIONS OF MICKEY D. BARNETT,



                        KATHERINE C. TOBIN, AND



                           ELLEN C. WILLIAMS

                              ----------                              


                        WEDNESDAY, JUNE 28, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Domenici, Warner, and Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning. Today the Committee will consider the nominations of 
Mickey Barnett, Katherine Tobin, and Ellen Williams to be 
Governors of the U.S. Postal Service.
    Members of this Committee are very familiar with the many 
serious challenges facing the Postal Service, and we have spent 
a great deal of time developing the postal reform legislation, 
which Senator Carper and I introduced, that has been passed by 
the Senate and is now in conference.
    The Board of Governors of the Postal Service is, in many 
ways, comparable to the board of directors of a corporation. 
The Board selects the CEO, in this case the Postmaster General, 
who then becomes the Board's 10th member. The Board controls 
expenditures, conducts long-range planning, and sets policy. 
The most important duty of the Board is to represent the public 
interest. This duty will become even more important under the 
postal reform bill that will emerge from conference.
    A fundamental purpose of this legislation is to preserve 
universal service and affordable rates that are so essential to 
our economy and to our communities. As we replace the current 
lengthy and litigious rate-setting process with a cap-based 
structure that will bring stability and predictability, the 
Board of Governors will play a central role in safeguarding the 
interest of the public and the mailing industry as it guides 
the Postal Service to a better and more sound financial future.
    I look forward to discussing this important responsibility 
with our nominees today. Let me just briefly tell you a little 
about the nominees, as we have distinguished colleagues Senator 
Domenici and Senator McConnell here to introduce them formally. 
I will submit the remainder of my statement for the record.
    [The prepared statement of Chairman Collins follows:]
                 PREPARED STATEMENT OF CHAIRMAN COLLINS
    Today, the Committee will consider the nominations of Mickey 
Barnett, Katherine Tobin, and Ellen Williams to be Governors of the 
U.S. Postal Service. Members of this Committee are very familiar with 
the many serious issues facing the Postal Service and have spent a 
great deal of time developing the postal reform legislation that has 
been passed by the Senate.
    The Board of Governors of the U.S. Postal Service is, in many ways, 
comparable to the board of directors of a corporation. The Board 
selects the CEO--in this case the Postmaster General--who then becomes 
the Board's tenth member. The board controls expenditures, conducts 
long-range planning, and sets policy. The most important duty of the 
Board is to represent the public interest.
    This duty will become even more important under the postal reform 
bill that will emerge from conference. A fundamental purpose of the 
legislation is to preserve the universal service and affordable rates 
that are so essential to our economy and our communities. As we replace 
the current lengthy and litigious rate-setting process with a cap-based 
structure that will bring stability and predictability, the Board of 
Governors will play a central role in safeguarding the interest of the 
public and the mailing industry as it guides the Postal Service to a 
more sound financial future. I look forward to discussing this role 
with our nominees today.
    Mickey Barnett is Managing Partner of the Barnett law firm in 
Albuquerque, New Mexico. Earlier in his career, Mr. Barnett served as a 
legislative assistant for Senator Domenici, a Member of this Committee. 
He also served for one term as a State Senator in the New Mexico 
legislature.
    Katherine Tobin is a self-employed market research consultant. 
Previously, Ms. Tobin served as Senior Market Research Manager with 
Taylor Nelson Sofres, as Senior Director at Catalyst, and marketing 
manager at Hewlett Packard. Ms. Tobin also served as Assistant Dean for 
the School of Graduate and Professional Studies at Manhattanville 
College. In 1984, Ms. Tobin served as co-chair of the U.S. Senate 
Productivity Awards for Nevada, which recognizes organizations with 
exemplary quality and productivity improvement efforts.
    Ellen Williams has served as Vice Chairman of the Kentucky Public 
Service Commission and as Commissioner of the Governor's Office for 
Local Development. She currently heads her own government relations 
firm.
    I thank our nominees for their interest in serving on the Board of 
Governors and welcome them to the Committee.

    Senator Collins. Just briefly, Mickey Barnett is the 
managing partner of the Barnett law firm in Albuquerque, New 
Mexico.
    Katherine Tobin is a self-employed market research 
consultant.
    Ellen Williams has her own government relations firm.
    All three have extensive experience, which I am sure we are 
going to hear about from those who are here to introduce them 
today.
    I want to thank our nominees for their interest in serving 
on the Board of Governors. Senator Carper and I have spent a 
great deal of time during the past 3 years working on postal 
issues, and we understand just how critical the Postal Service 
is to the health of our economy. It is truly the linchpin of a 
$900 billion mailing industry that employs some 9 million 
Americans. So, the positions for which our nominees have been 
nominated are very important positions indeed.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman. And thank you 
for moving us so quickly to consider these nominations. We 
welcome our colleagues, Senator McConnell and Senator Domenici, 
and we welcome our nominees, as well, and your families, who 
are here. I hope you will have a chance to introduce some of 
them to us today.
    I am pleased to be able to serve as the Ranking Member 
today as we consider who will take on several key leadership 
roles in the Postal Service during this time of transition. 
Again, we are grateful for your willingness to serve. I think 
you will love being called governor. As a recovering governor, 
I still like it when people call me governor, too. And for the 
rest of your lives, wherever you go, that will follow you. I 
think you will come to enjoy it.
    As we have discussed countless times in this Committee in 
the past, it is vitally important that the Postal Service begin 
to change to meet the needs of our 21st Century economy. The 
Postal Service is an entity created, as you may recall, in the 
early 1970s to serve a 1970s economy. And more than 30 years 
later, the products and services that postal employees provide 
each day have been met with competition not just from FedEx and 
UPS, but from innovations like the fax machine, the cell phone, 
email, and electronically paid bills.
    When I first arrived here in the U.S. Senate, almost 600 
years ago---- [Laughter.]
    No, actually, almost 6 years ago, the Postal Service was 
facing a significant financial crisis. And if I remember 
correctly, Madam Chairman, they were about to hit their 
statutory debt limit, and some were questioning whether or not 
they would even be able to continue to offer the kind of 
service that the American people have come to expect from them.
    Under the leadership of Postmaster General Potter, the 
Postal Service has moved away from the brink. They have been 
successfully cutting costs, finding efficiencies, and, despite 
declines in first class mail volumes, preserving universal 
service.
    There is still a lot of work to be done, and that is why 
our Chairman and I and our staffs have been working now for 
several years to develop legislation that would give the Postal 
Service the tools that they need to survive in a world in which 
people just are not going to turn to the mail as much as they 
did in the past.
    I think we are closer to the finish line now than we have 
ever been before with postal reform. I sure hope so. And even 
if we get our bill signed into law tomorrow, not likely, we 
will still need some strong leadership and vision from the 
postal management, especially the Postal Board of Governors.
    So, in closing, Madam Chairman, I want to say just a quick 
word about the Democratic vacancies on the Board of Governors. 
As some in this room are aware, the Postal Board of Governor, 
like the Amtrak Board of Governors and other Federal bodies, is 
meant to be a bipartisan body. At least four seats on the 
current Postal Board of Governors are reserved for Democrats. 
Even if all three of these nominees before us today were 
confirmed tomorrow, there would still be two Democratic 
vacancies. And one of those seats has been vacant since 
December 2002.
    To me, that is unacceptable. And as I have made clear, this 
is a critical time for the Postal Service. And if postal reform 
is indeed enacted this year, the Board of Governors will soon 
be dealing with transition to an entirely new rate and 
regulatory regime. In addition, postal management will begin 
negotiations any day now with the four major postal unions' 
expiring contracts. This is no time for the Board of Governors 
to be short-handed.
    I will close by saying, really, calling on the President to 
move swiftly in sending this Committee nominees to fill 
remaining vacancies on the Board of Governors. And when that 
happens, Madam Chairman, I pledge to work with you and Senator 
Lieberman and others to make sure that we consider these 
nominees properly and get our Board of Governors ready for the 
challenges that are ahead.
    Again, welcome, we are delighted you are here and look 
forward to hearing from our nominees and from our colleagues. 
Thank you.
    Chairman Collins. Thank you very much, Senator Carper. I 
have discussed your concern with the White House, and I am told 
that the White House has two potential Democratic nominees in 
the final stages of clearance, so I hope those will be sent up 
to us shortly.
    Senator Carper. That is good to hear. Thank you.
    Chairman Collins. Thank you. We are now going to start----
    Senator Carper. Now, maybe, I will not have to call on the 
President.
    Chairman Collins. I am sure that he would be delighted to 
hear from you.
    Senator Carper. OK.
    Chairman Collins. I am very pleased to call on Senator 
Domenici, who is a Member of this Committee, for the 
introduction of Mr. Barnett.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Thank you very much, Madam Chairman, and 
Senator Carper. It is great to be here this morning.
    I was wondering what I would say right up front about his 
qualifications, and I guess I was going to, and then I was not 
going to, and I am going to tell you that he and his wife were 
great babysitters. They took care of my eight children on a 
number of occasions as hired babysitters and----
    Senator Carper. I move that the nomination be approved. 
[Laughter.]
    Senator Domenici. I tell you if they could put up with that 
and survive, even the labor unions will have some tough 
sledding because they were terrific.
    In all seriousness, I have known him since he was a young 
man. He grew and matured and became a rather exciting figure in 
New Mexico. He did a lot of exciting activities in terms of 
lobbying. Truly, to my amazement from afar, because his 
achievements were very significant and powerful, and I have 
learned that Mickey Barnett is one of those persons that truly 
knows how to negotiate, how to work things so that results 
occur rather than stalemates persist. I think probably, without 
knowing it, you would like that kind of person on this board, 
without having chosen him for that purpose, you would probably 
like that kind of quality.
    I come here today knowing that you need not hear a lot from 
me, that it is sufficient, I would think, for you to know that 
I come here to tell you that I have known him for almost all of 
his adult life. I think he will be a good Postal Commissioner, 
based upon the qualities and activities that I have observed 
from--some from up close and some from afar. I have come to the 
conclusion that I should tell you that I think he will do a 
good job in this new and arduous job that you are seeking to 
confirm him for.
    I also want to say to the two of you, and the Committee 
that I am on with you, that the Post Office has been marvelous. 
It has withstood and stayed up there against unfathomable odds, 
and it would seem to me that the new structure that has been 
set up--the sooner the better. We ought to get it on its way, 
give it a shot. It is again up against incredible odds, and if 
you do not do something new and constructive and powerful at 
the Board of Directors level and then put people like this man 
on to see if they can compete against the private sector, which 
has chosen to make this a real part of the competitiveness of 
the American society of today, we do not have a chance.
    So, I decided I should be here today, and I decided I 
should tell you to hurry up and get it done. I think it is a 
right thing. So, I thank you for having me come here and waste 
your time having to listen to me, but I am pleased to give you 
that time today and hope that you hurry up with his 
confirmation and those of the other wonderful nominees that the 
President has sent you.
    Chairman Collins. Thank you very much.
    Senator Domenici. Thank you very much. It is good to be 
with you, Mr. Leader, at the table. Thank you.
    Chairman Collins. Thank you, Senator Domenici. Your 
endorsement means a great deal, not only to the nominee, but 
also to this Committee, which has benefitted from your wisdom 
and participation. So, thank you for being here today.
    Senator McConnell, we are very pleased to welcome you to 
the Committee for the purpose of introducing one of the 
nominees.

 STATEMENT OF THE HON. MITCH McCONNELL,\1\ A U.S. SENATOR FROM 
                     THE STATE OF KENTUCKY

    Senator McConnell. Thank you, Madam Chairman and Senator 
Carper. It is great to be here this morning on behalf of an old 
and dear friend of mine, who is an extraordinary Kentuckian. 
Ellen Williams has demonstrated great skill. She is smart, hard 
working, disciplined, honest, tireless, and loyal, just about 
everything you could want in an effective individual.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator McConnell appears in the 
Appendix on page 25.
---------------------------------------------------------------------------
    She has been Vice Chairman of the Kentucky Public Service 
Commission, where she oversaw the regulation of rates for our 
public utilities there in the State. She has served the people 
of Kentucky fairly and took care to provide service for all at 
low rates. She balanced the interest of the public and various 
electric, natural gas, telephone, water, and sewage companies, 
all of which were regulated by the Kentucky Public Service 
Commission.
    She was also Commissioner of the Governor's Office of Local 
Development, where she managed a statewide agency charged with 
providing State grants and loans to local governments, giving 
her perspective into how what government does affects the lives 
of people on the ground. She was able to adapt to the needs of 
different communities and worked to make sure that her agency's 
efforts went toward helping as many people as possible.
    Ellen's private sector work is relevant to her appointment, 
as well. She currently serves, as was said earlier, as 
president of her own government relations and public relations 
firm, demonstrating her ability to connect people to solve 
problems. And, in an earlier life, she was head of legislative 
affairs for the Lexington Bluegrass Association of Realtors.
    She has also been active in politics, where she was 
extraordinarily effective, as well. She has a Bachelor's Degree 
from the University of Kentucky. She went to high school in my 
hometown of Louisville and makes her home today in 
Lawrenceburg.
    Public service runs in Ellen's family. Her father, 
Lieutenant General John Conaway, is here today, and we are 
awfully proud of him. Her brother, Commander David Conaway, her 
son, Joey, I am sure he is proud of his mother, and Matt and 
Johnny Conaway, her nephews, are here as well.
    Madam Chairman, I would ask that all of my statement be put 
into the record. Let me just say in conclusion, the President 
simply could not have found a more outstanding nominee for this 
position than Ellen Williams. She is a truly extraordinary 
leader in our State, and I know she will do a superb job on 
this important Board, and I appreciate the opportunity to come 
here today and to second her nomination and to say nice things 
about her, which she richly, richly deserves.
    Chairman Collins. Thank you very much. We very much 
appreciate your taking the time to be with us this morning, and 
your endorsement of the candidate carries great weight with 
this Committee. Senator Carper.
    Senator Carper. Madam Chairman, I have just learned that 
Senator Harry Reid of Nevada cannot be here. He hoped to be 
here to introduce Katherine Tobin, but he is not able to join 
us, and he just asked to extend his very best wishes to you. He 
is proud of you and delighted that you are willing to serve in 
this role.
    Chairman Collins. Thank you. I want to excuse the two 
Senators at this point since I know that they have very busy 
schedules.
    Each nominee has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had their financial statements 
reviewed by the Office of Government Ethics.
    Without objection, this information will be made part of 
the hearing record, with the exception of the financial data, 
which are on file and available for public inspection in the 
Committee offices.
    In addition, the formal statements of the two Senators will 
be included in the hearing record.
    Senator Warner, I was just about to swear in the witnesses. 
Do you have any comments?
    Senator Warner. No.
    Chairman Collins. OK.
    Our Committee rules do require that all witnesses at 
nomination hearings give their testimony under oath. So I would 
ask that the nominees please stand and raise their right hands.
    Do you swear the testimony you are about to give the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Barnett. I do.
    Ms. Williams. I do.
    Ms. Tobin. I do.
    Chairman Collins. Please be seated.
    Mr. Barnett, we are going to begin with you. It is my 
understanding that some of you have family members present. And 
if you do, I would invite you to introduce them at this point.
    Mr. Barnett. Thank you, Madam Chairman. Unfortunately, my 
family was unable to travel from New Mexico, primarily because 
of the cost, being $1,300 for round-trip airfare.
    Chairman Collins. Wise decision.
    Mr. Barnett. But I appreciate the courtesy of the Committee 
in having us today and look forward to answering questions.
    First, I would like to thank Senator Domenici for coming 
over, and it was interesting, when I was 21 years old and took 
care of his eight kids while he went to Russia with Nancy for 2 
weeks. So, I learned a lot in those days when I worked on the 
Hill.
    Senator Carper. Was that a long 2 weeks? [Laughter.]
    Mr. Barnett. It was very long--you do not know what it is 
like to go to the grocery store and buy four gallons of milk, 
four or five loaves of bread, it is an interesting--and laundry 
and so forth.
    My wife, Janet, could not make it, and my son is in Dallas 
Theological Seminary and could not come up from Dallas. My 
daughter is a lawyer in Phoenix in the Institute for Justice, 
but I wish they could have all been here, it would have been 
nice, but they cannot. But thank you very much for your 
courtesies in having us.
    Chairman Collins. Ms. Tobin, would you like to introduce 
any family members that you have with you?
    Ms. Tobin. Yes, thank you, Chairman Collins. I would like 
to introduce my husband, Judge Evan Wallach of the U.S. Court 
of International Trade in New York City, my sister, Alice Tobin 
Zaff, my brother-in-law, Alan Zaff. And then, I am also lucky 
to have with me key friends who have been like family over the 
years. I want to thank them all for their support, 
encouragement, and interest in this nomination over the last 9 
months.
    Chairman Collins. Thank you.
    Ms. Williams, do you have family members, as well? I know 
that you do.
    Ms. Williams. I do for sure. I have two of my really good 
friends, as well, that are like family, Vicki Dixon and Dawn 
Riley. And my family members, I have my nephew, Johnny Conaway, 
who is going to be a senior in high school in Jacksonville, 
Florida. My nephew, Matt Conaway, who is from Ohio and 
interning this summer for Congressman Jim Gibbons. My youngest 
son, Joey, incoming eighth grader at Anderson County High 
School. My oldest son, Sam, could not be with me today because 
he is at soccer camp. I am a soccer mom.
    My brother, former Commander in the Navy and F-18 pilot, 
David Conaway. He flew combat in the Gulf War, and he is now a 
pilot with Delta Airlines.
    And then, the hero of my life, my father, Lieutenant 
General, John B. Conaway, Retired, former Chief of the National 
Guard Bureau from 1990-1994. He was Chief during Desert Shield 
and Desert Storm. And, truly, through his example I know what 
public service really means.
    Senator Warner. Your father is well known to us. He did 
have, and continues to have, a very distinguished career.
    Ms. Williams. Thank you. Thank you for the opportunity to 
introduce him and thank each of you for being here. And I 
appreciate Senator McConnell for taking the time to come over 
and introduce me to you. Thanks.
    Chairman Collins. Thank you. We will now proceed with 
statements. Mr. Barnett.

TESTIMONY OF MICKEY D. BARNETT\1\ TO BE A GOVERNOR OF THE U.S. 
                         POSTAL SERVICE

    Mr. Barnett. Madam Chairman, Members of the Committee. I 
have submitted a written statement and would stand for 
questions. I do not have anything else to add at this time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Barnett appears in the Appendix 
on page 30.
---------------------------------------------------------------------------
    Chairman Collins. OK. Ms. Tobin.

  TESTIMONY OF KATHERINE C. TOBIN \2\ TO BE A GOVERNOR OF THE 
                      U.S. POSTAL SERVICE

    Ms. Tobin. Thank you, Chairman Collins, Senator Warner, 
Senator Carper, and the Committee staff here today. Thank you 
for holding this hearing. As you said, Senator Carper, it is 
time to expand the Board to bring on new faces, energy, and 
ideas to the leadership team. Let me also thank Senator Harry 
Reid for submitting my name to the White House as a candidate 
for governor.
---------------------------------------------------------------------------
    \2\ The prepared statement of Ms. Tobin appears in the Appendix on 
page 78.
---------------------------------------------------------------------------
    Senator Reid, as we all know, is a public servant of the 
highest order whom I admire and support and whom I intend to 
make proud should I serve as governor of the U.S. Postal 
Service.
    I am pleased to appear before this Committee today for your 
consideration as a governor. As you know, I have worked for 
more than 25 years in two other sectors, the business sector 
and the academic/nonprofit sector. I intend to draw from this 
experience, and let me briefly review.
    I have worked as a manager, a researcher, and a consultant 
within corporate America at institutions such as Hewlett-
Packard Corporation and IBM. Additionally, while at Catalyst, a 
nonprofit dedicated to advancing women to leadership positions 
in business, I contributed by designing and conducting research 
studies on issues of diversity and gender equity. This research 
was done on behalf of the oil and gas industry, the food 
service industry, high technology industries, and diversified 
manufacturing companies.
    Thus, I bring 18 years of experience with the business 
world to the work of governor. In those years, I have learned 
many lessons on how to and, in a few cases, how not to manage 
people, systems, products, and services within a large, complex 
corporate structure.
    The halcyon days of my career were my years at Hewlett-
Packard Corporation during the heady time when Silicon Valley 
was leading the Nation forward with the creation and then 
deployment of wonderful new technologies, specifically the 
personal computer and then networked servers.
    HP was front-and-center and one of the best companies in 
the world for which to work. It had a reputation for 
innovation, quality, and commitment to local communities and 
the Nation. I watched with an eye to learn how Bill Hewlett, 
David Packard, John Young, whom I am sure you know, too, from 
his service, and Lew Platt guided the company through periods 
of growth and times of tough economic challenge. They built and 
maintained a strong values-based culture, one that emphasized 
hiring the right people, motivating them, and then building 
cross-functional and inter-divisional teams.
    Senator Warner. Madam Chairman, if I can interrupt.
    Chairman Collins. Sure.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Those words resonate with me. I went to the 
Pentagon in 1969 as Under Secretary of the Navy, and Dave 
Packard was there. And he had a profound influence on my life, 
and his legacy still is in the halls of the Pentagon, working 
to make government contracting and procurement more efficient.
    I tell you, to have you come in and say that, it means a 
great deal to me.
    Ms. Tobin. Thank you.
    Senator Warner. And this nominee has my vote.
    Ms. Tobin. He was someone, not only here, but down in the 
trenches when we had tough times----
    Senator Warner. Oh, yes.
    Ms. Tobin. He was inspiring.
    Senator Warner. And his wife, Lu.
    Ms. Tobin. Yes.
    Senator Warner. I knew them well. Thank you. Excuse me for 
the interruption.
    Ms. Tobin. Thank you.
    Senator Warner. We hardly ever do that, but I could not 
resist that.
    Ms. Tobin. They built and maintained, as I said, a strong, 
values-based culture, one that emphasized hiring the right 
people, motivating the team, and then creating inter-
divisional, international teams.
    In terms of what they delivered to the marketplace, HP was 
known for its commitment to customer satisfaction and 
incorporating customer requirements into its new products. This 
experience is all directly relevant to the role I would play as 
a governor. Organizations are never done with the job of 
focusing on their customers, products, and services.
    To be continuously competitive, and Senator Carper, you 
spoke about this in reference to postal reform, to be 
competitive requires systematic observation, inquiry, 
listening, and then translating what is learned into the new 
products or the current products and services.
    Additionally, I earned a Ph.D. in Administration and Policy 
Analysis from Stanford University School of Education. This 
involved course work in policy-making and analysis of various 
policy enactments. As doctoral students, we were required to 
study policy-making from different disciplinary perspectives, 
that of economics, political science, sociology, and 
anthropology.
    Extensive quantitative analysis was also a hallmark of our 
program. I took five courses in statistics, an extremely 
valuable course on how to conduct cost/benefit analyses, and a 
course in the School of Engineering on financial and cost 
accounting. Given the size and the scope of the U.S. Postal 
Service, I am sure that this knowledge base will serve me well 
as a governor.
    Separate from professional qualifications, I am a lifelong 
and appreciative customer of the U.S. Postal Service. Let me 
share a personal anecdote that conveys the very powerful nature 
of this service.
    My father, Lieutenant Commander Richard Tobin, died when I 
was just 14 years of age. My most treasured reflections of him 
are not the pictures, but the postcards and letters that he 
sent. He was part of the Seventh Fleet with overseas duty--
anti-submarine warfare missions, Senator, I know that is part 
of your history. My mother, my sister, and I lived stateside in 
Virginia and in Brunswick, Maine. And we had him away for 
months at a time, but it was through the U.S. Postal Service 
that his voice was delivered to our home. His letters were his 
way of connecting us not just to him, but to the world.
    So, why is this relevant? I actually think every one of us 
has a special story or two about the Postal Service, whether it 
be awaiting college admissions letters as teenagers, receiving 
love letters, a long-awaited job offer, annual birthday 
greetings, even, in your cases, your steady connections to your 
constituents. In all of these cases, important communications 
have occurred.
    We have all grown accustomed to this in having our very own 
6-day-a-week connection to our world, its people, and 
organizations, but now, this is the rub, our population is 
continually moving, changing, and growing. Continuing this 
important and historic universal service, doing it well in a 
financially efficient, responsible way, in a way which serves 
both the American people and the hardworking and talented 
people who are the Postal Service employees--that is the 
challenge that we face.
    So, I would be honored to work on this challenge, together 
with the other governors, the postmaster, and through the 
efforts of hundreds of thousands of postal employees.
    Thank you, and I welcome your questions.
    Chairman Collins. Thank you very much for your eloquent 
statement. Ms. Williams.

TESTIMONY OF ELLEN C. WILLIAMS\1\ TO BE A GOVERNOR OF THE U.S. 
                         POSTAL SERVICE

    Ms. Williams. Thank you. Thank you, Senator Collins, 
Senator Carper, and Senator Warner. I appreciate the 
opportunity to appear before you at the prospect of becoming a 
governor on the U.S. Postal Board. I am grateful for the 
opportunity to be here. And I would like to thank the President 
for his confidence in me by virtue of this nomination. It is a 
tremendous honor, and I am really humbled by his faith in my 
ability to be a contributing member to the U.S. Postal Board of 
Governors.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms.Williams appears in the Appendix 
on page 101.
---------------------------------------------------------------------------
    I would like to thank the staff of the U.S. Homeland 
Security and Governmental Affairs Committee for their diligence 
in asking questions to insure that all the relevant information 
necessary to consider my nomination is disclosed. They have 
been terrific to work with, and they do a very thorough job. I 
thank each of them.
    I have been involved in government and politics for over 25 
years. During that time, I have had the privilege of working in 
the U.S. House of Representatives, the U.S. Senate, the White 
House, and in State government, the Commonwealth of Kentucky, 
as well, and I have also actively participated in politics in 
Kentucky and nationally.
    I believe I bring a unique set of skills and experience to 
the Board of Governors. I have business, government, and 
management experience. I know the importance of public service. 
And, as a small town resident, I understand and appreciate the 
valuable role of the U.S. Postal Service. It is oftentimes the 
one thing that people can count on each day in their lives. It 
is their connection with family, with friends, and with 
opportunities.
    I understand the importance of a safe, secure Post Office 
and well-trained employees. They are the front line in this 
wonderful agency, and I believe that it is important that their 
input is listened to, considered, and counted on. I will be a 
willing listener to management and labor on all issues and 
pledge not to make hasty decisions until I understand all the 
facts.
    During my tenure as Vice Chairman of the Kentucky Public 
Service Commission, I developed an understanding and knowledge 
of what it means to provide universal service to the public 
through fair and affordable rates. I am keenly aware of the 
differing positions that the stakeholders will have and am 
confident in my ability to listen and work with each group to 
make the right decision to benefit the public and the Post 
Office.
    Through my involvement in government, I understand the 
importance of communicating with this body and pledge to you 
that I will work hard to learn the positions of all 
stakeholders and fairly work with each group to insure that the 
U.S. Postal Service continues to be the most universally used, 
most trusted, and most respected service available.
    I thank you for the chance to be here today. I thank you 
for your consideration of my nomination, and I humbly ask for 
your support, and I will answer any questions that you may 
have.
    Chairman Collins. Thank you.
    I am going to begin the questioning today with the three 
standard questions that we ask for the record of all nominees.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Barnett.
    Mr. Barnett. None.
    Chairman Collins. Ms. Tobin.
    Ms. Tobin. No.
    Chairman Collins. Ms. Williams.
    Ms. Williams. No.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of this office?
    Mr. Barnett. None.
    Ms. Tobin. No. I do not.
    Chairman Collins. If you can say for the record, Ms. 
Williams?
    Ms. Williams. No.
    Chairman Collins. Thank you. And third, do you agree, 
without reservation, to respond to any reasonable summons to 
appear and testify before any duly constituted Committee of 
Congress if you are confirmed?
    Mr. Barnett.
    Mr. Barnett. Yes.
    Chairman Collins. Ms. Tobin.
    Ms. Tobin. Yes.
    Chairman Collins. Ms. Williams.
    Ms. Williams. Yes.
    Chairman Collins. Thank you. You have passed the hardest 
part.
    Ms. Williams. Great.
    Chairman Collins. We are now going to begin a round of 
questions limited to 6 minutes each, but we will do two rounds, 
I would say to my colleague.
    One of the longstanding issues facing the Postal Service is 
to strengthen the relationship between labor and management. We 
have worked very closely on this Committee in drafting the 
postal reform legislation with the Postmaster's Association, 
with the Postal Supervisors Group, and with the four postal 
unions. I will tell you that you have terrific leaders to work 
with across all of those organizations.
    As you know, the success of any large organization, any 
organization, large or small, depends upon its employees. What 
are your thoughts on what the Postal Board of Governors could 
do to further strengthen and encourage greater cooperation 
between the postal management and the employees of the Postal 
Service?
    Mr. Barnett.
    Mr. Barnett. Madam Chairman, Members of the Committee, I 
think it is important in all endeavors to have transparency--if 
you have read the studies that have been done in the last few 
years--all recommend transparency. It comes up over and over 
again that the stakeholders believe that their interests are 
being represented in the decisionmaking process.
    And so one of the most important things that I think you 
could do as a Postal Governor is to make sure all the 
stakeholders know that we are accessible, we will listen to 
their concerns, we will consider them, and to the extent that 
we are involved in management--and we are not managers, that is 
the Postmaster General and below--we will listen to all of 
their concerns and try to make it work for everybody.
    Universal service is critical. I live in a rural State. The 
mail has got to be delivered out on the Navajo Reservation and 
places that are very inaccessible, and if there is a labor or 
management problem, it has to get solved because the people 
that will be hurt are the recipients of the mail. And it is our 
job to work with all the parties to make sure they believe we 
will listen to their concerns.
    Chairman Collins. Ms. Tobin.
    Ms. Tobin. I would agree with what Mr. Barnett has said. 
The visibility, the accountability, the listening--I mentioned 
earlier in my remarks about the importance of continuously 
listening. I am not yet aware of how the Board of Governors 
does that, but I was pleased to have an opportunity and hope to 
have more opportunities to talk with the union people to learn 
what they are wrestling with.
    I know that the Postal Service has various measures and 
metrics that they have in place, some of which relate to 
service, and I am not certain the degree to which labor hears 
about those measures and where we listen on the Board, on the 
management side, to understand that we have the right measures. 
So, I think the listening, the accountability piece, is also 
important.
    Chairman Collins. Ms. Williams.
    Ms. Williams. Thank you, Senator Collins and Senator 
Carper.
    I, too, agree, as the last person to speak, that the 
transparency in all of our operations as the Board of Directors 
for the U.S. Postal Service is important. And as I have stated 
throughout my questions and in my testimony, I want to seek out 
the various stakeholders and sit and listen and learn. And I 
would like, upon confirmation, should I have that honor, to 
begin seeking knowledge and input from all of the various 
folks, particularly union, to understand the concerns, some of 
the history, and to try to work to open lines of communication 
so that we can make good decisions for the benefit of all the 
Americans who have the benefit of the Postal Service, but also 
for the 700 plus thousand workers that the Postal Service 
employs.
    Chairman Collins. Ms. Williams, the current relationship 
between the Board of Governors and this Committee, which is the 
Committee of jurisdiction, is not a strong one. What would you 
do to foster better cooperation and communication between the 
Board and Congressional Committees with direct oversight of the 
Postal Service?
    Ms. Williams. Thank you for that question, Chairman 
Collins. As a former staffer on the House side and the Senate 
side, I have a great appreciation for the work that is done by 
you all and by the staff along the back row, there. And, as you 
work to develop new laws and as you listen to things that may 
or may not need to be changed, I think that it is critically 
important that the Board of Governors work with you all and 
that we have a good exchange back and forth and open lines of 
communication, formally and informally.
    As we go through this process, the Postal Service is facing 
sort of a crossroads, if you will; your postal reform 
legislation is nearing completion in the passage stage, I know 
you hope very much, and we would be key in working with you all 
to implement that legislation. So, I would like to spend as 
much time as necessary and as possible to work with the staff 
and to better enhance the relationships that the two entities 
have.
    Chairman Collins. Ms. Tobin, you mentioned, or rather, Mr. 
Barnett mentioned that he supported the principle of universal 
service. I want to get both you and Ms. Williams on record on 
that issue, as well.
    What are your thoughts on the necessity of universal 
service?
    Ms. Tobin. I think the U.S. Postal Service has its 
beginnings in universal service. That is where I feel an 
obligation as a governor-to-be to carry out that mission. It is 
something that unites the Nation, as I said earlier. It should 
be, I mentioned, a values-based organization. I would hope it 
would be in the reform legislation and in the ongoing running 
of the Postal Service. It's bedrock.
    Chairman Collins. Ms. Williams.
    Ms. Williams. I believe universal service is the basis for 
which the 1970 Postal Service legislation was enacted, to 
insure that Americans in this country and overseas can 
communicate with each other and, as Ms. Tobin eloquently put, 
tie us all together or bind us together. And so I think it is 
really the fundamental sort of mission that we have as we move 
forward.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thank you, Madam Chairman. I want to start 
out, if I could, with Mr. Barnett. You chose, as you are 
certainly welcome to do, to forego making a statement. I 
appreciated the opportunity to visit with you earlier this 
month.
    And I just want to ask if you might do as our other two 
witnesses have done as they have sought to connect their 
previous life's work, their previous life's experience, to 
their role in serving as governors on this Board. I would just 
ask you to take a minute or so to do that, as well.
    Mr. Barnett. Thank you, Madam Chairman, Senator Carper.
    I think that in our careers we have to learn--and my 
careers have involved working on the Hill and the New Mexico 
State Senate and being a lawyer for 30 years, or in my 30th 
year, and all of those activities involve, at their core, being 
able to get something done. You cannot be an effective 
legislator if you cannot work with both sides of the aisle to 
get some legislation through and signed by the governor. You 
cannot be an effective lawyer if you cannot negotiate 
settlements or, when that fails, then be an effective advocate 
before a judge to win your case.
    All of those attributes are exactly what are needed on a 
Board of Directors. I do not know the particulars of the Postal 
Service. I do not think anyone would that has not been involved 
in it, but it has to be the same kind of stakeholder disputes 
that you have in every aspect of a legislative fight or a legal 
fight, and that is one side wants this, the other side does not 
necessarily disagree that would not be necessary, but they do 
not have the money. And that is the case here.
    We have a situation where we have an entity that is--it is 
variously described as in a death spiral, economically, or 
various different things, but we know what it is. There are 
more people to deliver to every year and fewer people buying 
first class stamps.
    Somehow we have to use the talents you cultivate and learn 
over a lifetime in getting the stakeholders to understand that 
they cannot all have their way. There has to be a way to solve 
it where everybody benefits. There is a point by which price 
cannot increase beyond a certain point, or there will lead to 
an even further drop off in usage. We know that. That is basic 
economics.
    But the stakeholders have to also understand that if they 
kill the goose that lay the golden egg, if they kill the Postal 
Service, they cannot get their products delivered, at least for 
an economically viable model.
    So, I think that the talents that you learn in trying to 
get along--I was in the rather small minority in our 
legislature because we were in the minority, and yet I think I 
passed every bill I ever introduced. Some got vetoed, but I was 
able to get them all through, and I think that is because you 
learn to work with everybody, and you have to listen, and you 
have to understand what they are doing.
    The same way in the legal career. You cannot afford to 
litigate every case. You must settle them. And better than 95 
percent of all cases are settled, and that is a talent that you 
learn through mediation techniques.
    Senator Carper. OK. Thanks very much.
    I think Senator Collins mentioned earlier in her comments, 
she talked about how the size of the Postal Service is 
enormous, and if it were a private company, it would be maybe 
among the largest companies in the world.
    I have tended to view the Board of Governors as a little 
bit like a board of directors, a corporate board. And I would 
just ask each of you, maybe starting with you, Ms. Williams, to 
just talk with us a little bit about your approach to serving 
on the Board of Governors, if confirmed.
    Ms. Williams. Thank you. I appreciate the question, Senator 
Carper.
    I believe that the Board of Governors, as one of the 
largest boards of a major corporation, needs to have people 
with differing perspectives sit at the table. I think it is 
well and good to say that everybody should be CEOs of a 
company, but we serve people that live in small towns, that 
live in rural States, that come from all walks of life. And to 
have the various perspectives of small business, of government, 
of running associations, I think provides the opportunity to 
look at things through a different perspective, if you will.
    Not everybody in my little State of Kentucky pays their 
bills online because we do not all have Internet access. Not 
everybody takes advantage nor will they ever take advantage of 
the technology that people in the more urban areas do. So, I 
think that my personal background will lend itself well to 
providing a different perspective at times as we look at 
different kinds of reform and we think about if the passport is 
a good thing to do at the Postal Service or if it is a bad 
thing to do.
    Having just chaperoned a high school soccer team to Europe, 
we got our passports through the Anderson County, Lawrenceburg, 
Kentucky, Post Office. We got our pictures there and our 
passports. Without that service in our small town, I would not 
have had the opportunity to take those kids overseas.
    So, I think we all bring different strengths to the table.
    Senator Carper. Rather than ask the other witnesses to 
respond to that question, I want to ask you, you mentioned one 
of the services that they provide at this particular Post 
Office, and we find that there is a couple schools of thought 
about the kinds of services the Postal Service should be 
providing. Should they be in the electronic communications 
business? Should they be involved in selling stationary, 
providing different kinds of services that are now offered by a 
number of private companies?
    I would just ask you, Ms. Tobin, if you want to kick it 
off.
    Ms. Tobin. Sure.
    Senator Carper. Just some preliminary thoughts about those 
questions because they are going to be questions that you will 
have a chance to continue to address.
    Ms. Tobin. I consider this a fun question because we have 
described the size and the scope of this service and needing to 
get the mission done, and yet we also need to not get too 
distracted by all of the things that could be connected to the 
mail. So, how do you do that?
    With some of the Committee staff, I spent some time talking 
on that. One example--I am going to give an example and then I 
am going to draw somewhat of a line, if I may. I think it was 
Mr. Kilvington from your staff who was saying would you want to 
have Postal Service wrapping centers and could you combine that 
with the mail and would that not be good during the holiday 
time? And what I am thinking of is, clearly, you would have a 
process to look at this as a new product. You would begin to 
see if you are going to develop new products, as Mr. Barnett 
said, you only have so much money. You have to make some 
tradeoffs.
    Maybe what you have is some innovative way of saying, 
``right next to the Postal Service is the wrapping store, or 
the like.'' So, there were some interesting partnerships going 
on very much like what you see in corporate America, separate 
and yet connected, due to the nature of their business.
    So, I would, I guess, also go back to say priorities are 
important to set, and innovation is a piece of that priority. 
So, there has got to be some innovation.
    Senator Carper. All right. My time is expired, and I would 
yield back to the Chairman, but I will come and pick up this 
line of questioning with the other witnesses.
    Ms. Tobin. OK.
    Senator Carper. Thank you.
    Chairman Collins. Actually, I am going to do it for you.
    Senator Carper. OK.
    Chairman Collins. This is an issue that is of great concern 
to me, as well. It is a difficult balance, what issues and what 
products the Postal Service should be providing. On the one 
hand, you do not want unfair competition----
    Ms. Tobin. Right.
    Chairman Collins [continuing]. With small businesses in the 
community that may have the ability to provide the exact same 
service. On the other hand, Ms. Williams' example of the 
passports being available in a way that they would not 
otherwise be in a rural community gives you the other side of 
that argument. The Postal Service has been criticized for some 
of its forays into providing products that are already 
available in the private sector, such as greeting cards and 
wrapping supplies. Mr. Barnett, how do we strike the right 
balance? How does the Board of Governors make the right 
decision on whether or not to enter a field or provide a 
product that is not directly related to the delivery of mail?
    Mr. Barnett. Well, balancing is important, but first I 
think you would decide, is it readily available? In other 
words, we have all had the same thing in our State. We had the 
same thing with the University bookstore selling all kinds of 
things and the local bookstores complaining. It is something 
that happens in all aspects of government services.
    The issue is the wrapping services might be readily 
available in a town or a large community, but if it is a remote 
Post Office, those wrapping and packaging services would not be 
available. So, some of it might not be universal. In other 
words, sometimes you might choose to have some Post Offices 
have some products available and yet not every Post Office.
    The passport example is a core function of this government. 
It may well become our form of identification as we go forward 
having to have more ability to show forms of identification. So 
this, to me, would be easier to say that the maximum number of 
locations that you could have passport facilities, you should 
do so.
    But you are absolutely right. The more you compete with 
local businesses, the more you can run those businesses out of 
the ability to operate. And, in a small town, that is also 
death. I mean, you need a vibrant, viable, local community.
    So, I think it is a balancing test, and you have to look at 
it. I think the Postal Service would have to err on the side of 
doing its core task, which is deliver the mail. And when it 
expands, it should be after thought, after hearing from the 
stakeholders, and particularly hearing from other businesses 
that would be affected as to how it would affect them. And, in 
some cases, how partnerships, as Ms. Tobin described, could be 
operated because that is another option that might work, where 
you could contract with them or work with them to do that kind 
of task.
    Chairman Collins. The Postal Service, I would note, has 
also lost money in several of the ventures that it has 
undertaken in this area. So, I think this is an area where the 
Board of Governors needs to proceed very cautiously, looking at 
the impact on small businesses. Not only current ones, but 
future ones, as well as what it does to the basic mission of 
the Postal Service.
    Another controversial issue that will undoubtedly come 
before you has to do with closings of Post Offices. As those of 
you who represent or are from more rural areas are well aware, 
the Post Office can sometimes be the town center, the one place 
that people gather, not only to get their mail, but to exchange 
information. It has a role in smaller rural communities well 
beyond just being the source of mail delivery, sorting, and 
handling. On the other hand, it is expensive for the Postal 
Service to maintain such an extensive infrastructure.
    I am not going to ask you what the right balance should be, 
but whether or not you think there should be more transparency 
in the process, so that the Postal Service communicates with 
all the stakeholders when it is considering the closure of a 
post office.
    Ms. Williams.
    Ms. Williams. Thank you, Chairman Collins.
    I think, without a doubt, transparency, without 
jeopardizing any security issues, should be at the forefront of 
how we make our decisions. And you are not asking us, and I am 
not prepared, at this time to talk about closings of Post 
Offices in rural or urban areas, but I think that it is 
something that, as we sit down and understand in greater 
detail, should we be confirmed--the budget of the U.S. Post 
Office, the very services, the distance between a Post Office 
that may be proposed to be closed, if there is such a list that 
exists, versus one that may be open and functioning.
    I think there are many factors, input from the community, 
the workers, what does that do to the folks and the jobs. I 
just think that we have to be judicious as we make those 
decisions and, again, cannot make anything just for the bottom 
dollar. I think that is important, do not get me wrong, but I 
also understand the necessity of the Post Office and the 
service to folks across this country.
    Chairman Collins. Ms. Tobin, do you think that the Postal 
Service should develop specific standards and publish those 
standards to guide its decisionmaking and to give the public 
the opportunity to comment on the standards that would be used?
    Ms. Tobin. I would say that would be wise. I think it is 
wise to make it clear to people what the process is and, well 
ahead of time, so that people can become aware. I have seen 
that done. I referenced it, Hewlett-Packard, when there was a 
change in the pension system. And it was not going to serve 
many of the younger people well, but when it was explained 
well, people understood what had to be done.
    Again, this is similar to what you were saying. You have to 
get clear. So, the sooner one can present the standards and let 
people know, then they start to see how action is occurring, 
and it is just more comprehensible.
    Chairman Collins. I would note that the legislation that 
Senator Carper and I have introduced not only endorses 
universal service and affordable rates--these are our goals--
but also convenient community access to retail postal services. 
I think that is really important that we insure that no matter 
where you live, whether it is a very rural, remote area, or 
whether it is in a big city, that you do have that convenient 
access. There are many ways to provide that, but that is 
certainly one of our goals.
    Senator Carper.
    Senator Carper. Thank you.
    I am going to ask each of you just to briefly, maybe, talk 
with us about your vision for the Postal Service in the future.
    Ms. Williams, you have a son here, a couple of your nephews 
here. What, 50 years from now, 30, or 20 years, what kind of 
Postal Service do you envision for them? And I will ask the 
same question of Ms. Tobin and Mr. Barnett.
    Ms. Williams. I think technology will have factored in at a 
greater level. I cannot envision exactly how. But I do believe 
that through computers and all of these young people back 
here--I mean, it is second nature to them to get on the 
computer. But to be able to have the services that the Post 
Office supplies right now through the actual Post Office 
buildings, to have access to a computer, I think, is going to 
be a huge--technology will change it immensely.
    But I still think that nothing takes the place of a card or 
a postcard. And so I would still hope that the basic premise 
for the sake of just, I do not know, longevity and connection 
with families and friends and relatives across the world still 
exists. I think it will become a more universal, global, if you 
will, Post Office. And I appreciate the opportunity to be part 
of it as we stand at a crossroads with your legislation.
    Senator Carper. All right. Thank you.
    Ms. Tobin, give us some thoughts of your vision.
    Ms. Tobin. I am going to build on what Ms. Williams has 
just stated here.
    I actually was trained as an anthropologist, and I think as 
time goes forward, we think we change----
    Senator Carper. We do not have any of those on the Postal 
Board. [Laughter.]
    Ms. Tobin. No. I know.
    Senator Carper. We have been looking for one.
    Ms. Tobin. But there is a lot of data there.
    Anyway, I think that people think change is changing 
everything, but ultimately the value, even in urban settings, 
is one of having a place that people come to, that of having 
tools for mailing purposes that are at their fingertips through 
technology. Even tools that speed up the things that we have 
all hated, the lines, those wonderful mailing kiosks help 
address.
    My vision is that we find the things that are frustrating 
and reduce some of that. And I do not believe, Senator, that we 
are going to ever not want to get those special things from 
people in the mail, at our door, on Saturday. Surprise.
    Senator Carper. Thank you. Mr. Barnett.
    Mr. Barnett. Madam Chairman, Senator Carper.
    We do not know what will happen in 50 years. A vision is a 
very difficult thing with it changing. But 2 weeks ago in New 
Mexico, it is no longer permissible to mail a pleading to the 
bankruptcy court. Later this year, it will no longer be 
permissible to mail to the Federal District Court. That is a 
massive change for someone that is in the legal profession.
    But the Post Office may have a role, and this is not 
something that is thought through, but there may be a role in 
how you verify who sent it, verification, because this is a 
quasi-governmental agency, and its methods by which it might 
verify how these documents are sent, whether they are correct, 
to insure that someone else cannot send them in, those kinds of 
things, that is a role that the Postal Service might well play 
in the future. It may not.
    It is daunting to sit here as somebody who is brand new at 
this and try to envision something in 50 years. I am 55, and I 
know that no one 50 years ago could have believed that we would 
have cell phones and we would have personal computers. So, I do 
not know, but I know that it is the only governmental entity 
that is really involved in every American's life. Social 
Security benefits, Veterans' benefits, everything flows to 
people through the U.S. Postal Service, and I hope that never 
changes.
    You have to have at least a core part of government for the 
ability of the citizens of the government to communicate with 
their government. And the Postal Service should be in the 
forefront of doing that, whether it is by mail or whether it is 
by some other means.
    Senator Carper. All right. Thank you.
    One of the issues that we have wrestled with going forward 
is how to provide some certainty to mailers, in terms of the 
costs that they will incur, and whether they happen to be 
individuals, families, or if they happen to be businesses, 
large or small. And Senator Collins and I have worked with our 
colleagues to try to figure out how to provide some certainty 
and, at the same time, how to provide some flexibility to the 
Postal Service to price their products and not have to go 
through an extensive, lengthy process to determine what those 
prices might be.
    What we have come up with, in the Senate, at least, is an 
approach whereby we say--well, just say, for example, that all 
of the folks out in this audience are different products that 
the Postal Service handles, we will say products A through Z. 
And our approach says that the price for those products can go 
up by the rate of inflation. Product A may go up more than the 
rate of inflation. Product B may go up, like, two times the 
rate of inflation, and so forth. But, overall, the increase can 
be no more than the rate of inflation.
    We provide some exceptions. If there is an emergency, if we 
see an oil embargo and we have the price of oil go up by a 
dollar. There are anthrax attacks, that kind of thing. There 
are ways to get around it, but we would like to see some kind 
of stability.
    The House has a somewhat different approach, but this one 
we need to figure out between now and the time we send the bill 
to the President.
    Just your thoughts on price, stability, and the flip side 
of that is flexibility for the Postal Service in pricing their 
products in the 21st Century.
    And Mr. Barnett, you are welcome to go first, if you like.
    Mr. Barnett. Madam Chairman, Senator Carper.
    It is the Congress' position and obligation to set our 
standards, and we will operate in whichever--whether the House 
version passes or the Senate, or something in between. So, we 
would implement it, I am certain all of us would agree, in the 
manner in which you tell us to implement it.
    I do not know the answer. The real problem is, of course, 
how actuarially you can compute the flexibility versus the 
cost. I know that I was given a figure last week when I was 
talking with the staff about when the price of gasoline goes up 
a cent a gallon how vast an amount of money that is to the 
Postal Service. And so that has to be factored in, and it 
sounds like the Senate bill, for sure, has that.
    I do not feel competent to sit here today and tell you what 
the policy should be, but I am competent today to tell you 
whatever policy you guys arrive at and the President signs, we 
will implement to the best of our ability.
    Senator Carper. All right. Thank you. Ms. Tobin.
    Ms. Tobin. I think the Senate writing of that makes sense 
to me. The need to have some kind of control, yet giving the 
Board of Governors and the Postal Service the flexibility to 
handle the unknowns. That is what you would have to have if you 
had a business. That business Board of Directors would have to 
be making the same kind of choice, and we cannot go too far and 
not go out of business, and I think that is what you are also 
trying to do by that cap.
    So, it makes sense to me what the Senate has proposed, and 
I have not seen the House legislation.
    Senator Carper. Thank you. Ms. Williams.
    Ms. Williams. Thank you.
    I appreciate what you all put in the legislation. If it is 
passed then obviously, and should we be confirmed, we would 
work diligently to make sure that it was implemented. Not 
knowing all of the details that go into the rate-making and 
pricing of all the various market driven and competitive 
products, I would like to reserve comment until I understand 
the process more.
    Senator Carper. Fair enough. Thank you.
    I think my time is expired, Madam Chairman. Thank you.
    Chairman Collins. Thank you.
    Mr. Barnett, my final series of questions today are for 
you. As you know, your nomination has not been without some 
opposition, although you have certainly garnered very strong 
support, as well.
    The Committee has received a couple of letters, which we 
will be putting into the hearing record, that allege that while 
you were a Republican National Committeeman for New Mexico, you 
used that office to benefit your firm's clients. I want to give 
you the opportunity to respond on the record. We have discussed 
this privately, but I think it is important given the letters 
the Committee has received that you respond at this hearing.
    Mr. Barnett. Thank you, Madam Chairman, Members of the 
Committee.
    First, being on the Republican National Committee was an 
honor, but it had no power of any kind or any concern. It may 
be different on the Democrat side, I do not know. But being on 
the Committee is, well, particularly while you hold the White 
House, an honorary position. There was never a single vote, 
never a single anything that was not unanimous. We did what we 
were told. Ms. Williams may disagree, but I think we served 
together.
    So, the charge, while easy to make, is inaccurate. There is 
not any method by which you have anything on the National 
Committee to do anything. You meet twice a year and you 
occasionally vote. I think we had, probably, four votes, 
primarily to pick the chairman, and that was it. So, the charge 
is incorrect. There was not anything done.
    I have five lobbying clients, which is a small part of my 
life. I enjoy it because I like politics, but my law practice 
is where I work everyday. The Republican National Committee 
meets in Washington. It is a national position. I have no 
national clients. Anything I have is all at the New Mexico 
level. So, there was no connection between being a Republican 
National Committeeman and having clients or having anybody 
benefit in any manner.
    Chairman Collins. And finally, if confirmed, how would 
reconcile your professional responsibilities to your clients 
and your responsibilities as a Governor of the Postal Service. 
Do you see any potential for a conflict of interest? Do you 
have any clients that have matters pending before the Board of 
Governors?
    Mr. Barnett. No. I have no clients even remotely connected 
with the U.S. Postal Service, and all of us have gone through a 
rather extensive set of questions and involvement. And, quite 
to my surprise, I had stocks in three companies that I have 
sold since I started this--Intel--and other companies that I 
have no idea what their connection is with the Postal Service.
    But, having read the very serious nature of the obligations 
that we undertake here, and the legalities, anything I ever do 
is going to go to the Office of Ethics or the--I think one of 
them is in the room today. There will be nothing that will ever 
come up that I will not cover first if it ever comes up. I do 
not honestly think that, in Albuquerque, New Mexico, there is 
any company or business or anything else that has any 
connection with the Postal Service. But should I even perceive 
there is I would immediately contact the Ethics Office and get 
clearance on it before I did anything.
    Chairman Collins. Thank you.
    Senator Carper, do you have any further questions?
    Senator Carper. Maybe one or two.
    When I was governor, I served on the Board of Amtrak, 
appointed by the President and confirmed by the Senate. And 
Tommy Thompson was my successor, actually, my predecessor and 
my successor. One of our major roles on the Amtrak Board of 
Directors was to figure out who was going to be the President 
of Amtrak, to figure out who were going to be the senior 
managers and to get the right mix of talent to lead the 
organization.
    I welcome your thoughts, with respect to going about that, 
approaching that task and that responsibility as we think about 
succession and making sure the right people are in the right 
spot.
    Ms. Tobin, if you would like to lead off, you are welcome 
to.
    Ms. Tobin. Sure. Succession planning is something that I 
like to think of certainly for that top position, but going 
down deeper, particularly as it relates to diversity of people 
for the top leadership jobs.
    One of my perspectives would be, be it Amtrak or the Postal 
Service, having as far down as one can, clear value placed on 
diversity and on competence. So, I guess I would say that I was 
pleased to hear that internally the Postal Service chose the 
current Postmaster General. And down the line I think it is 
important to have internal and external--very clear 
specifications and internal-external candidates being 
considered.
    So, I think the succession planning process is one that 
needs to go deeper than the top levels, though.
    Senator Carper. All right. Thank you. Mr. Barnett.
    Mr. Barnett. Madam Chairman, Senator Carper.
    Probably the most critical decision that we directly make 
as a Board of Governors would be that, and I do not know when 
it may occur, whether it is a year or two, or 10 years from 
now, we have not gotten into that. I have not gone down to the 
Postal Service or talked to anybody.
    But it is the most important thing we could do, and I would 
agree with everything that Ms. Tobin said. Our goal would be to 
find some one we think can work with labor and management and 
reach consensus rather than constant turmoil and fighting. And 
second, would have the economics background or be able to 
absorb advice from economists on how actuarially to handle the 
future financial difficulties that the Postal Service would 
have.
    Senator Carper. Ms. Williams.
    Ms. Williams. Thank you, Senator Carper and Chairman 
Collins.
    In 2010, it is my understanding that there is going to be a 
large number of retirements that occur across the Postal 
Service. And so I understand there has been some succession 
planning that has gone on and that may be in place, and I think 
a review of that, as often as need be, whether it is yearly or 
twice a year, to really understand what the needs are, where 
the retirements are occurring to make sure that in the top 
management we have candidates that people feel comfortable 
pursuing candidacies of some of the top positions.
    I understand General Potter does a tremendous job and has 
been a great leader of the Postal Service. So, I think as a 
Board of Governors for this agency it behooves us to really get 
involved in succession planning down below just upper 
management, as Ms. Tobin said, and work to make sure that we 
have talented, professional people in the pipeline willing to 
step up and lead this agency.
    Senator Carper. There is really kind of a delicate balance 
there. I think, to the extent that a Board finds the right 
people at the top and empowers them to go out and put their 
team together and then holds them responsible, there is a lot 
to be said for that.
    As you approach that responsibility, and I think it is one 
of the greatest responsibilities that you will face in these 
roles if you are confirmed, and I expect that you will be, you 
may want to just be always mindful of looking for people who 
are consistently interested in figuring out the right thing to 
do and trying to do it. You may want to find leaders who 
believe in the Golden Rule, who actually practice the Golden 
Rule, to treat other people the way they want to be treated.
    It might be helpful to have senior management who are 
committed to excellence in everything that they and their team 
do. And I have always found it helpful to have folks around who 
just do not want to give up. I like to say, no means find 
another way. People who really persist and if they think that 
they are right, they will stick with it.
    And I have always liked to look for managers or leaders who 
consistently surround themselves with the very best people they 
can find. And when things go well, they give their team the 
credit. And when things do not go well, the leader takes the 
blame. And I hope you will always look for leaders at the 
Postal Service who have those traits and have those qualities.
    And if you do, if you can find them and keep them, the 
Postal Service will be in good hands for a long time, including 
when these guys are old enough to sit up here and chair this 
Committee and help lead our country.
    Thank you for being with us today and for your willingness 
to serve our nation.
    Ms. Williams. Thank you.
    Ms. Tobin. Thank you very much.
    Mr. Barnett. Thank you, Senator.
    Chairman Collins. Thank you, Senator Carper, for your 
continued excellence in pursuing postal issues. I very much 
appreciate your acting as the Ranking Member for this hearing 
today.
    Senator Carper. It is my pleasure. It is an honor to sit 
with you.
    Chairman Collins. Thank you.
    I want to thank our nominees for appearing this morning and 
for their forthright answers to our questions. There may be a 
few additional questions for the hearing record. Without 
objection, the record will be kept open until noon tomorrow for 
the submission of any written questions or statements for the 
record.
    In closing, let me just emphasize that the comprehensive 
postal reform legislation that Senator Carper and I have 
authored and are determined to see signed into law this year 
will be the most sweeping overhaul of the Postal Service in 
more than 30 years. Its successful implementation is going to 
depend in no small measure on the work of the Board of 
Governors.
    We look forward to working very closely with you, should 
you be confirmed, and I am optimistic that will occur, as you 
carry out those responsibilities. I would add that the bill 
also vests more responsibilities in the Board of Governors, so 
that is an important feature of the bill, as well.
    This is really important work that you have committed to 
undertake, and we look forward to working closely with you.
    This hearing is adjourned.
    [Whereupon, at 11:16 a.m., the hearing was adjourned.]

                           A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
